March 31, 2003

ANITA J. BIZZOTTO
SENIOR VICE PRESIDENT, CHIEF MARKETING OFFICER

STEVEN HERNANDEZ
ACTING VICE PRESIDENT, SALES

SUBJECT:     Audit Report – Postal Service’s Involvement in Sponsorships
             (Report Number OE-AR-03-003)

This report presents the results of our self-initiated audit of the Postal Service’s
involvement in sponsorships (Project Number 01NG003MK000). The audit objectives
were to determine whether sponsorships contributed to the agency’s financial
performance, incurred appropriate expenditures, and met stated goals and objectives.
In addition, we evaluated whether the Postal Service should be involved in
sponsorships.

While we found no significant exceptions with sponsorship expenditures, the audit
disclosed that the Postal Service has not effectively managed its sponsorships.
Specifically, the Postal Service was unable to track or verify revenue associated with
sponsorships, lacked goals and objectives for some sponsorships, and did not manage
tickets and invitations appropriately. As a result, the Postal Service could not determine
return on investments, measure the effectiveness of its sponsorships, and take
advantage of networking opportunities to generate revenue.

In addition, we found no laws or policies precluding the Postal Service from being
involved in sponsorships. However, in light of recent media coverage and public policy
debate on sponsorships, it is even more paramount for the Postal Service to justify its
actions. The Postal Service needs to consider sponsorships in light of its monopoly
status, financial condition, investment returns, and core mission. The report provided
seven recommendations addressing these issues.

Management agreed with 6 of 7 recommendations. Although they disagreed with
recommendation 1, management’s planned actions satisfy its intent and should correct
the issue. Management’s comments were not responsive to recommendation 4.
However, following the issuance of their comments, management provided additional
documentation clarifying plans to issue a directive ensuring each sponsorship has
specific and measurable goals and objectives. Therefore, we consider this
recommendation resolved. Management’s comments and our evaluation of these
comments are included in this report.

The OIG considers recommendations 1, 2, and 7 significant and, therefore, requires
OIG concurrence before closure, consequently, the OIG requests written confirmation
when corrective action(s) are completed. These recommendation(s) should not be
closed in the follow-up tracking system until the OIG provides written confirmation that
the recommendation(s) can be closed.

We appreciate the cooperation and courtesies provided by your staff during the review.
If you have any questions or need additional information, please contact Robert J.
Batta, director, Accepting and Processing, at (703) 248-2100, or me at (703) 248-2300.



Ronald D. Merryman
Acting Assistant Inspector General
 for eBusiness

Attachment

cc: Richard J. Strasser Jr.
    Mary Anne Gibbons
    Keith Strange
    Azeezaly S. Jaffer
    Susan M. Duchek
Postal Service’s Involvement in Sponsorships                      OE-AR-03-003



                                   TABLE OF CONTENTS
 Executive Summary                                                  i

 Part I

 Introduction                                                       1

      Background                                                    1
      Objectives, Scope, and Methodology                            2
      Prior Audit Coverage                                          3

 Part II

 Audit Results                                                      4

      Sponsorships Ineffectively Managed                            4
      Recommendation                                                5
      Management’s Comments                                         5
      Evaluation of Management’s Comments                           5

          Appropriateness of Expenditures                           5
          Recommendation                                            6
          Management’s Comments                                     6
          Evaluation of Management’s Comments                       6

          Unable to Verify Sponsorships Financial Performance       6
          Recommendation                                            7
          Management’s Comments                                     8
          Evaluation of Management’s Comments                       8

          Lack of Goals and Objectives                              8
          Recommendations                                           9
          Management’s Comments                                     9
          Evaluation of Management’s Comments                       9

          Ineffective Management of Sponsorship Event
            Tickets and Invitations                               10
          Recommendation                                          13
          Management’s Comments                                   13
          Evaluation of Management’s Comments                     13




                                         Restricted Information
Postal Service’s Involvement in Sponsorships                         OE-AR-03-003




      Sponsorships Public Policy Issues                              14
      Recommendation                                                 15
      Management’s Comments                                          15
      Evaluation of Management’s Comments                            15

      Appendix A. Management’s Comments                              16
      Appendix B. OIG’s Response to Management’s Comments Claiming
                  Report Inaccuracies                                22




                                         Restricted Information
Postal Service’s Involvement in Sponsorships                                           OE-AR-03-003



                                  EXECUTIVE SUMMARY
Introduction                  This report presents the results of our self-initiated audit of
                              the Postal Service’s involvement in sponsorships. Our
                              review was limited to one national and ten local
                              sponsorships, all of which were active between 1996 and
                              2002. We did not review any charitable sponsorships
                              because of their small dollar amounts. Our audit objectives
                              were to determine whether sponsorships contributed to the
                              agency’s financial performance, incurred appropriate
                              expenditures, and met stated goals and objectives. In
                              addition, we examined whether the Postal Service should
                              be involved in sponsorships.

Results in Brief              While we found no significant exceptions with sponsorship
                              expenditures, the audit disclosed that the Postal Service
                              has not effectively managed its sponsorships. Specifically,
                              the Postal Service:

                                  •   Was unable to verify revenue claimed as a result of
                                      sponsorships and, therefore, could not determine
                                      return on investment.

                                  •   Lacked goals and objectives for 10 of the
                                      11 sponsorships, resulting in the inability to
                                      measure effectiveness.

                                  •   Did not track 776 (31 percent) and properly use
                                      1,682 (96 percent) of its event tickets and invitations
                                      in 2001, resulting in a loss of networking
                                      opportunities and another avenue to generate
                                      revenue.

                              As a result, it was not possible to measure the effectiveness
                              of the program in its current state, and it is questionable
                              whether the Postal Service could support a business case
                              to retain the sponsorships.

                              Several factors that have contributed to these conditions
                              included: (1) the Postal Service did not always follow
                              procedures for initiating sponsorships, (2) no single
                              executive or office has complete knowledge and
                              accountability over sponsorships, and (3) adequate
                              mechanisms were not established for tracking revenues and
                              costs related to sponsorships.



                                                    i
                                         Restricted Information
Postal Service’s Involvement in Sponsorships                                      OE-AR-03-003



                              In addition, we found no laws or policies precluding the
                              Postal Service from being involved in sponsorships.
                              However, in light of recent media coverage and public policy
                              debate on sponsorships, it is even more paramount for the
                              Postal Service to justify its actions. The Postal Service
                              needs to consider its involvement in sponsorships given its
                              monopoly status, financial condition, investment returns,
                              and core mission.

Summary of                    We recommended Postal Service management (1) appoint
Recommendations               one executive responsible for managing all sponsorships
                              and establish effective controls and measures over the
                              initiatives, and (2) develop a business case for sponsorships
                              that examines public policy issues and other business
                              concerns.

Summary of                    Management agreed with 6 of the 7 recommendations.
Management’s                  They disagreed with recommendation 1 to formally appoint
Comments                      an executive with responsibility for overall Postal Service
                              sponsorships and management of the program.

                              Regarding recommendation 4, management indicated that
                              all sponsorships are based on five goals and objectives,
                              outlined in their policy. Management’s comments, in their
                              entirety, are included in Appendix A of this report.

Overall Evaluation of         Management agreed with recommendations 2 through 7.
Management’s                  Regarding recommendation 1, the intent of our
Comments                      recommendation was to establish a single focal point
                              responsible for the management of sponsorships. All future
                              national sponsorships will be managed out of the Marketing
                              organization, and local sponsorships will be approved by
                              Marketing. Thus, we consider planned actions responsive
                              to the intent of recommendation 1.

                              While management agreed with recommendation 4, their
                              comments were not responsive. However, following the
                              issuance of their comments, management provided
                              additional documentation clarifying plans to issue a directive
                              ensuring each sponsorship has specific and measurable
                              goals and objectives. Therefore, we consider this
                              recommendation resolved. Management’s actions taken or
                              planned should correct the issues identified in the report.




                                                    ii
                                         Restricted Information
Postal Service’s Involvement in Sponsorships                               OE-AR-03-003




                              In Appendix B, we addressed management’s concerns
                              regarding claimed inaccuracies in the report.




                                                   iii
                                         Restricted Information
Postal Service’s Involvement in Sponsorships                                                        OE-AR-03-003



                                               INTRODUCTION
Background                       Since 1996, the Postal Service has had one national and over
                                 200 local sponsorships.1 The intent of the advertising and
                                 marketing sponsorships was primarily to promote sales and
                                 enhance brand position and exposure. During this audit, we
                                 reviewed 11 sponsorships with total costs of over $48 million
                                 (see Chart A below).

                                                                        Chart A
                                                                                                Other
                                                                         Contract Advertising  Related             Total
                                 Sponsorships              Period          Costs       Costs Expenses             Costs
                                 Pro-Cycling             1996-2002      $26,188,631   $12,446,297 $1,611,179 $40,246,107
                                 Heisman                 2000-2001         515,000       -            -           515,000
                                 Chicago Bears           1998-2002         632,500       -            -           632,500
                                 New York Yankees        1999-2002        3,656,000      -            -        3,656,000
                                 New York Giants         1998-2002        1,936,000      -            -        1,936,000
                                 Notre Dame              2001-2002         338,000       -            -           338,000
                                 DM Days
                                           2                2001           150,000       -            -           150,000
                                 First Union
                                 (Philadelphia)            2001             30,000       -            -            30,000
                                 Tampa Bay Devil Rays    1998-2000         630,500       -            -           630,500
                                 Masters Tournament         1999            14,000       -            -            14,000
                                 Ryder Cup                  2001            79,000       -            -            79,000
                                 Total                                  $34,169,631   $12,446,297 $1,611,179 $48,227,107


                                 In 1996, the Postal Service initiated its national sponsorship with a
                                 Pro-Cycling team sponsorship as a business opportunity to
                                 generate new revenue and build brand image. The team won
                                 national and international races, including four consecutive
                                 Tour de France races. This sponsorship totals over $40 million
                                 and has become the Postal Service’s most expensive sponsorship
                                 endeavor.

                                 As of January 1999, the senior vice-president, chief marketing
                                 officer, took responsibility for approving all field and headquarters
                                 sponsorship/event-marketing requests. Prior to this, area offices
                                 and headquarters could authorize sponsorships within their own
                                 budget constraints. From 1996 to 1997, the Advertising
                                 department managed the Pro-Cycling team sponsorship until it
                                 was turned over to the Sales organization in 1998. In addition, the
                                 Expedited Package Service group initiated and managed eight

1
  National sponsorships are defined as those that are funded and managed at the headquarters level.
  Local sponsorships are defined as those that are funded from headquarters and managed at the area level.
2
  The Postal Service provided documentation on sponsorships at the onset of the review, which included DM Days.
   Management’s comments indicated that DM Days is not the same type of sponsorship as the ones reviewed.



                                                          1
                                               Restricted Information
Postal Service’s Involvement in Sponsorships                                                  OE-AR-03-003



                               sponsorships through 2001. However, management of all
                               sponsorships (except the Pro-Cycling team under Sales) was
                               transferred to Advertising as a result of the Postal Service’s 2001
                               reorganization. Since 1998, the Postal Service has eliminated
                               over 200 sponsorships, leaving only 5 as of October 2002.3

Objectives, Scope,             The objectives of this audit were to determine whether
and Methodology                sponsorships: (1) contributed to the agency’s financial
                               performance, (2) incurred appropriate expenditures, and (3) met
                               stated goals and objectives. We also examined whether the
                               Postal Service should be involved in sponsorships.

                               To accomplish these objectives, we interviewed Postal Service
                               officials at headquarters and field offices, marketing
                               representatives from private companies and contractors, and
                               officials from government, quasi-government, and nonprofit
                               organizations. Additionally, we reviewed applicable Postal Service
                               policies, guidance, and best practices for managing and
                               measuring sponsorships.

                               To evaluate whether sponsorships contributed to the financial
                               performance, we reviewed contract and related costs, and
                               documentation available on benefits and/or return-on-investments.
                               To review whether the sponsorships met stated goals and
                               objectives, we reviewed sponsorships’ objectives, rationale, and
                               pre- and post-event evaluations.

                               To assess whether expenditures were appropriate, we relied on
                               data from the Accounts Payable and Reporting System and
                               examined over $48 million in expenditures related to
                               sponsorships. We assessed the reliability of this data including
                               relevant general and application controls and found them to be
                               adequate. We also reviewed whether certain procedures were
                               followed regarding the initiation and continuation of sponsorships
                               as well as ticket usage.

                               To determine whether the Postal Service should be involved in
                               sponsorships, we reviewed public policy issues; assessed the
                               involvement of government and quasi-government agencies and
                               private companies in sponsorships; obtained documents
                               supporting sponsorships from Postal Service internal publications,
                               and testimonies made by employees and critics.

3
  These were the: Pro-Cycling team; Ryder Cup Golf Tournament; New York Yankees (Major League Baseball
team); New York Giants (National Football League team), and Notre Dame (College Football team).



                                                     2
                                          Restricted Information
Postal Service’s Involvement in Sponsorships                                     OE-AR-03-003



                              Our review was limited to one national and ten local sponsorships,
                              all of which were active between 1996 and 2002. We did not
                              review any charitable sponsorships because of their small dollar
                              amounts. This audit was conducted from August 2001 through
                              March 2003 in accordance with generally accepted government
                              auditing standards, and included such tests of internal controls as
                              were considered necessary under the circumstances. We
                              discussed our conclusions and observations with appropriate
                              management officials and included their comments, where
                              appropriate.

Prior Audit Coverage          In July 1993, the General Accounting Office (GAO) issued a
                              report, 1992 Olympic Sponsorship-Profit or Loss is Unknown
                              (Report Number GAO/GGD-93-89). The report indicated the GAO
                              could not verify the accuracy of certain key revenues and costs
                              attributed to the sponsorship because it was so intertwined and
                              overlapped with other Postal Service operations.




                                                    3
                                         Restricted Information
Postal Service’s Involvement in Sponsorships                                      OE-AR-03-003



                                       AUDIT RESULTS

 Sponsorships                  The Postal Service has not effectively managed sponsorships.
 Ineffectively                 While we found no significant exceptions with sponsorship
 Managed                       expenditures, we found the Postal Service:

                                   •   Was unable to verify sponsorships’ financial
                                       performance.

                                   •   Lacked goals and objectives for some sponsorships.

                                   •   Ineffectively managed sponsorship event tickets and
                                       invitations.

                               There are several factors that contributed to these conditions.
                               For example, no single executive or office has complete
                               knowledge and accountability over all Postal Service
                               sponsorships. In addition, the Postal Service does not have
                               adequate controls and measures over the sponsorships.
                               Therefore, it was not possible to measure the effectiveness of
                               the program in its current state, and in our view, it is
                               questionable whether the Postal Service could support a
                               business case to retain the sponsorships.

                               In August 2002, management acknowledged problems in the
                               past regarding sponsorships. However, since 1998 the Postal
                               Service eliminated over 200 sponsorships, leaving only 5 as of
                               October 2002. Management also stated the Postal Service was
                               looking to the future and if sponsorship opportunities are
                               deemed beneficial to the agency, it will continue to participate.
                               For example, management emphasized that the brand
                               recognition and boost in employee morale from the Pro-Cycling
                               team sponsorship far outweighs the cost to the Postal Service
                               and stated there are no plans or developments to change the
                               current process of implementing sponsorships. Additionally,
                               management stated all sponsorships would be coordinated
                               through the manager of Advertising, a decision that was
                               communicated verbally to Marketing managers in 2001, but not
                               in writing.




                                                    4
                                         Restricted Information
Postal Service’s Involvement in Sponsorships                                                           OE-AR-03-003




    Recommendation                  We recommend the senior vice president, chief marketing
                                    officer:

                                        1. Formally appoint one executive with responsibility over
                                           all Postal Service sponsorships and management of the
                                           program.

    Management’s                    Management disagreed with our recommendation. They
    Comments                        indicated that the Pro-Cycling team national sponsorship will be
                                    managed by Sales until the contract end in 2004. Any future
                                    national sponsorship will be under the Marketing organization.
                                    Local sponsorship will be approved by Marketing and the
                                    management of them will be turned over to the local level.

    Evaluation of                   The intent of our recommendation was to establish a single
    Management’s                    focal point at headquarters responsible for the management of
    Comments                        sponsorships. With the exception of the Pro-Cycling team, all
                                    future national sponsorships will be managed out of the
                                    Marketing organization, and local sponsorships will be
                                    approved by this organization as well. Thus, we consider
                                    management’s planned actions responsive to the intent of our
                                    recommendation and they should correct the issues identified
                                    in the report.

    Appropriateness of              We reviewed $48 million in sponsorship costs to determine
    Expenditures                    whether they were appropriate and if any of the costs
                                    duplicated services or products already paid under the
                                    sponsorship agreements. These costs include $26 million in
                                    fees paid under the Pro-Cycling team sponsorship agreements,
                                    over $14 million in additional Pro-Cycling team related
                                    expenditures, and over $7.9 million in sponsorship fees for the
                                    remaining ten sponsorships.4

                                    Our review did not disclose any significant exceptions.
                                    However, in some cases accounts were commingled, making it
                                    difficult to identify what costs were attributed to the Pro-Cycling
                                    team sponsorship.




4
  These related expenditures included advertising and promotions as well as hospitalities, lodging, and similar
expenses incurred at sponsorship events. We did not identify any additional expenditures related to the other
ten sponsorships reviewed.



                                                          5
                                               Restricted Information
Postal Service’s Involvement in Sponsorships                                                        OE-AR-03-003




    Recommendation                 We recommend the senior vice president, chief marketing
                                   officer:

                                       2. Identify and track all costs associated with each
                                          sponsorship initiative.

    Management’s                   Management agreed with our recommendation and had already
    Comments                       taken corrective actions. Management stated that since
                                   December 2001, the Sales Support Integration team has
                                   tracked all the Pro-Cycling team associated costs. The
                                   Advertising group also considers the direct cost of a
                                   sponsorship, when approving and evaluating the sponsorship’s
                                   effectiveness.

    Evaluation of                  During the audit, we noted a marked improvement in tracking
    Management’s                   the cost of the Pro-Cycling team sponsorship. Management’s
    Comments                       comments are responsive to the recommendation.
                                   Management’s actions taken or planned should correct the
                                   issues identified in the report.

    Unable to Verify               The Postal Service was unable to fully validate over
    Sponsorships Financial         $130 million in revenue claimed from two5 sponsorships.
    Performance                    Based on interviews with sales representatives and national
                                   account managers, combined with financial analyses, we
                                   verified only $698,000 of the $18 million claimed by the Postal
                                   Service over a 4-year period as revenue generated as a result
                                   of the Pro-Cycling team sponsorship. In addition, the Postal
                                   Service was not able to validate the $112 million claimed in
                                   1999 as revenue from sponsorship of the New York Yankees.
                                   Postal Service managers stated this new revenue would have
                                   been attained regardless of the sponsorship, and it would be
                                   difficult to link the revenue to the New York Yankees’
                                   sponsorship because so many other factors contribute to
                                   increased revenue. As a result, claims of monetary benefits
                                   are unsubstantiated and future business decisions that were
                                   made based on those claims may result in a waste of funds.

                                   Some companies have developed best practices in managing
                                   and estimating sponsorships benefits. For example, IEG6
                                   Incorporated has established methodologies in these areas.

5
 We did not find claims of revenue generated for the other nine sponsorships.
6
 IEG Incorporated is recognized as “the world’s leading provider of independent research and analysis on
sponsorships.”



                                                        6
                                             Restricted Information
Postal Service’s Involvement in Sponsorships                                        OE-AR-03-003




                               Their manual entitled, Measuring And Managing Sponsorships
                               Return, describes methods to measure incremental gains in
                               sales revenue. For example:

                                   •   Comparing sales for the period surrounding the
                                       sponsorship to the same period in prior years.

                                   •   Measuring sales in the immediate event area against
                                       national sales during the same period.

                                   •   Comparing sales in participating retail or dealer outlets
                                       versus those not participating.

                                   •   Coding new leads generated then tracking how many of
                                       them become sales.

                                   •   Working with the sales force to track the value of new or
                                       incremental business generated by clients who were
                                       entertained.

                                   •   Calculating the value of new sales to the rights holder
                                       and cosponsors.

                               Armed with the value of increased sales, sponsors can then
                               calculate sponsorships’ return-on-investment and the dollar
                               return on money spent to acquire new accounts or customers.

                               Postal Service management was unable to validate the
                               revenue because prior to 2001, the Postal Service did not have
                               an adequate mechanism in place to track revenues. In 2001,
                               the Postal Service used the Accounts Management System to
                               document account contacts, record sales activities, and sales
                               performance of all national and premier accounts. However,
                               sales representatives did not always input pertinent sales data.
                               Furthermore, a Postal Service manager informed us there were
                               not enough resources to validate revenue.

 Recommendation                We recommend the senior vice president, chief marketing
                               officer, in coordination with the acting vice president, Sales:

                                   3. Ensure data is captured to track sales, leads, and
                                      monetary benefits that directly relate to sponsorships.




                                                    7
                                         Restricted Information
Postal Service’s Involvement in Sponsorships                                              OE-AR-03-003




    Management’s                    Management agreed with our recommendation and had already
    Comments                        taken corrective actions. Management stated that since
                                    December 2001, area sales managers repeatedly have been
                                    reminded to record all sales activities resulting from
                                    sponsorships and are working with employees to ensure proper
                                    system reporting.

    Evaluation of                   Management’s comments are responsive to the
    Management’s                    recommendation. Management’s actions taken or planned
    Comments                        should correct the issues identified in the report.

    Lack of Goals and               The Postal Service’s 11 sponsorships, costing over $48 million
    Objectives                      through 2002, did not always have goals and objectives. We
                                    found:

                                        •    Ten sponsorships had no goals and objectives or had
                                             only vague justifications that could not be measured.

                                        •    The Pro-Cycling team sponsorship had goals and
                                             objectives; however, they were not always measured to
                                             determine achievement.

                                    According to best practices regarding the measurement and
                                    management of sponsorships’ return, articulating measurable
                                    objectives is a prerequisite for effective measurement.
                                    Explicitly stated goals at the outset should drive everything that
                                    follows, from selecting a suitable sponsorship to determining
                                    what and how sponsorships will be measured.

                                    This lack of establishing goals and objectives occurred because
                                    before the year 2000, there was no official policy for planning,
                                    initiating, or managing sponsorships. In addition, despite
                                    implementation of the Sponsorship Event Policy and Evaluation
                                    Manual in April 2000, we were told managers were not
                                    following this policy because it is cumbersome to use.
                                    Furthermore, sponsorships were initiated without proper
                                    evaluations because Postal Service management verbally
                                    agreed to participate in the Expedited Package Services
                                    sponsorships and employees initiated agreements without the
                                    performance of pre-evaluations7 or establishment of specific
                                    measurable goals and objectives. We were also told that
                                    during the renewal of the Pro-Cycling team sponsorship those

7
    Pre-evaluations are required by the Sponsorship Event Policy and Evaluation Manual.



                                                          8
                                               Restricted Information
Postal Service’s Involvement in Sponsorships                                                         OE-AR-03-003




                                   responsible for administering the initiative awarded the
                                   sponsorship without following the sponsorship event manual.

                                   As a result, for ten of the sponsorships and the first 5 years of
                                   the Pro-Cycling team sponsorship,8 the Postal Service had not
                                   measured and/or quantified benefits or return on investment of
                                   these initiatives. Consequently, there is only a limited basis on
                                   which to build a business case that warrants the initiation or
                                   continuation of sponsorships.

                                   We did find, however, that the Postal Service had an evaluation
                                   performed to determine the exposure value of the Pro-Cycling
                                   team for the year 2001. The study concluded that the value of
                                   domestic exposure was three times its contract cost for that
                                   year. The analysis arrived at this figure by assigning a value to
                                   the exposure, media coverage, promotional activities, and
                                   intangible benefits that are included in the sponsorship.
                                   However, according to best practices, media exposure can be a
                                   distraction to what really matters, which is how the sponsorship
                                   impacted sales, shareholder value, and return on investment.
                                   Furthermore, the study did not cover the specific fiscal
                                   year 2001 monetary goal of increasing revenue by $20 million.

    Recommendation                We recommend the senior vice president, chief marketing
                                  officer:
                                       4. Ensure sponsorships have specific and measurable
                                          goals and objectives and update the policy to include
                                          this requirement.

    Management’s                  Management agreed with this recommendation. Management’s
    Comments                      comments indicated that all sponsorships are based on five
                                  goals and objectives, which are the focal point of each analysis,
                                  evaluation, and post-assessment. This policy was formalized in
                                  the sponsorship event manual in April 2000.

    Evaluation of                 Management’s comments were not responsive to our
    Management’s                  recommendation. However, following the issuance of their
    Comments                      comments, management provided additional




8
  The Postal Service contracted with Foote, Cone, and Belton, Incorporated, to measure the value of the Pro-Cycling
team sponsorship in 2001, 5 years after the initial agreement.



                                                         9
                                              Restricted Information
Postal Service’s Involvement in Sponsorships                                       OE-AR-03-003




                               documentation clarifying that they plan to issue a directive to
                               ensure each sponsorship has specific and measurable goals
                               and objectives. Management’s actions taken or planned should
                               correct the issues identified in the report.

 Recommendation                We recommend the senior vice president, chief marketing
                               officer:
                                   5. Ensure the Sponsorship Event Policy and Evaluation
                                      Manual policy is followed to determine suitability, costs
                                      and benefits, and measurability.

 Management’s                  Management agreed with our recommendation. Management’s
 Comments                      response indicated that they are using the sponsorship event
                               policy manual.

 Evaluation of                 Management’s comments are responsive to the
 Management’s                  recommendation. Management’s actions taken or planned
 Comments                      should correct the issues identified in the report.

 Ineffective                   The Postal Service ineffectively managed sponsorship event
 Management of                 tickets and invitations in 2001. Specifically, the Postal Service
 Sponsorship Event             (1) did not track 31 percent (776 of 2,524) of its tickets and
 Tickets and Invitations       invitations, and (2) did not follow Postal Service guidelines for
                               96 percent (1,682 of 1,748) of its tickets and invitations that
                               were tracked.

                               In 1997, the postmaster general, chief executive officer,
                               provided guidance when using these tickets and invitations.
                               According to the guidance, tickets were to be monitored and
                               tracked to document how they were used. Additionally, one of
                               the stipulations was the Postal Service had to follow a ratio of
                               three customers to one Postal Service representative when
                               using the tickets for the purpose of discussing business
                               opportunities. The guidance also allows tickets and invitations
                               to be used, on a limited basis, for employee incentive awards
                               and community relations.




                                                   10
                                         Restricted Information
Postal Service’s Involvement in Sponsorships                                              OE-AR-03-003




                               Chart B Depicts the Percentages of Tickets/Invitations Not
                               Tracked On Some Sponsorships

                                                                  Chart B
                                Event and Number of Tickets in                   Total/Percentage
                                2001                                    Total    Not Tracked
                                Pro-Cycling team                          801             500 (62%)
                                New York Yankees                        1,598             249 (16%)
                                New York Giants-6
                                Tampa Bay Devil Rays-4                      27           27 (100%)
                                Masters-5
                                Heisman-12
                                Notre Dame                                  66
                                                                                            0 (0%)
                                Chicago Bears                               32

                                Total                                   2,524            776 (31%)

                                   •    While the Postal Service tracked 301 tickets and
                                        invitations for Pro-Cycling team sponsorship events, it
                                        did not provide distribution information on 500 invitations
                                        for one event.

                                   •    In another case, the Postal Service did not track 249 of
                                        1,598 New York Yankee tickets for the 2001 season.

                                   •    The Postal Service did not provide a distribution listing
                                        for 27 tickets for four sponsorships because they were
                                        not tracked. Thus, we could not determine how and to
                                        whom these tickets were distributed.




                                                   11
                                         Restricted Information
Postal Service’s Involvement in Sponsorships                                                             OE-AR-03-003




                                    Chart C Depicts How Ticket/Invitations Usage Did Not Meet the
                                    3 to 1 Ratio for Some Sponsorships

                                                                           Chart C
                                                 Total
                                                 Number of                                Number Donated      Ratio of
                                                 Tickets                                   for Community      Customer to
                                                 Tracked       Employees    Customers         Relations       Employee

                                    Notre            66            17            49               0               2.8 to 1
                                    Dame                         (26%)         (74%)

                                    Chicago          32             0            32               0                32-0
                                    Bears                                      (100%)
                                                                                                                            9
                                    New York        1,349        1,210           39               100             1 to 31
                                    Yankees                      (76%)          (2%)             (6%)
                                                                                                                            10
                                    Pro-             301          109           192               0             1.76 to 1
                                    Cycling                      (14%)         (24%)


                                         •     While the Postal Service’s sponsorship of Notre Dame
                                               met the 3 to 1 ticket ratio (customers to Postal Service
                                               employees), three other sponsorships did not. These
                                               three sponsorship packages included 1,682 tracked
                                               tickets and invitations.

                                         •     In the case of the Chicago Bears sponsorship, the log
                                               indicated that out of 32 tickets, no Postal Service
                                               employees accompanied customers to the events.

                                         •     In the case of the New York Yankees, the ratio was
                                               1 customer to 31 employees resulting in employees
                                               using over 76 percent of the tickets and customers only
                                               2 percent.11 Although the guidance allows the tickets to
                                               be used for employee incentives on a limited basis, we
                                               believe that 76 percent exceeds what would be
                                               considered a “limited basis.” We did not perform a ratio
                                               analysis on the remaining seven sponsorships because
                                               they did not have tickets or the data was incomplete.

                                    These conditions occurred because managers responsible for
                                    monitoring ticket use were not familiar with the guidance
                                    outlining the 3 to 1 ratio.

9
  This ratio represents the allocation of 1,349 tickets tracked by the Postal Service. We do not consider this ratio a
true representation because 1,598 tickets were not tracked.
10
   This ratio represents the allocation of 301 tickets tracked by the Postal Service. We do not consider this ratio a
true representation because 500 tickets were not tracked.
11
   Of the remaining 22 percent, 6 percent were donated for community relations and 16 percent were not tracked.



                                                          12
                                                Restricted Information
Postal Service’s Involvement in Sponsorships                                         OE-AR-03-003




                               As a result, the Postal Service did not fully utilize the tickets and
                               invitations, resulting in a loss of networking opportunities and
                               another avenue to generate revenue. If no employees were
                               present with customers, or if employees attend events without
                               customers, it is not possible to achieve the goal of building
                               business opportunities or relations. Tracking this ticket
                               information consistently would give Postal Service management
                               a tool to ensure the proper mix of employees and customers are
                               using the tickets.

 Recommendation                We recommend the senior vice president, chief marketing
                               officer:

                                   6. Track ticket and invitation usage to ensure they are
                                      used as intended and support the goals of building
                                      business relations, increasing employee morale, and
                                      enhancing community relations. The information
                                      tracked should include what revenue or other benefits
                                      were generated as a result of relations built at these
                                      ticketed events.

 Management’s                  Management agreed with our recommendation and had already
 Comments                      taken corrective actions. Management’s response indicated
                               that all national and local sponsorship tickets and invitation
                               usage are being tracked.

 Evaluation of                 Management’s comments are responsive to the
 Management’s                  recommendation. Management’s actions taken or planned
 Comments                      should correct the issues identified in the report.




                                                   13
                                         Restricted Information
Postal Service’s Involvement in Sponsorships                                                     OE-AR-03-003




 Sponsorships Public                 Based on the Postal Reorganization Act of 1970, the Postal
 Policy Issues                       Service is to operate in a businesslike manner, while still
                                     maintaining its status as a government entity. As such, it will
                                     continue to struggle to balance the goals of operating like a
                                     business with having to serve and answer to the public. We
                                     found no laws or policies precluding the Postal Service from
                                     being involved in sponsorships. However, in light of recent
                                     media coverage and public policy debate on sponsorships, it is
                                     even more paramount for the Postal Service to justify its
                                     actions.

                                     The Sponsorship Event Policy and Evaluation Manual 12
                                     requires evaluations, image assessments, information
                                     requests, and business assessments before sponsorships are
                                     established to ensure full value from these investments.
                                     Additionally, best business practices suggest that ample
                                     research and analysis be performed to determine benefits and
                                     justify major investments. A pre-evaluation, economic
                                     analysis, or business plan was performed for only three, and a
                                     post evaluation for only 1 of the 11 sponsorships reviewed.

                                     Since the majority of the sponsorship evaluations were not
                                     performed, in our view, the Postal Service needs to develop
                                     an overall business case and consider the following issues.

                                         •   Does the Postal Service need sponsorships given their
                                             statutory monopoly over First-Class Mail?

                                         •   Two objectives of the Pro-Cycling team sponsorship
                                             were to increase revenue and sales of Postal Service’s
                                             products on a global basis and to increase sales in key
                                             international markets. However, international sales
                                             represent only 2.6 percent of the Postal Services
                                             annual revenue, and the volume of international mail
                                             has been flat or declining since 1996.

                                         •   Why should the Postal Service support sponsorships
                                             given that it lost over $1.6 billion in 2001 and
                                             $676 million in 2002, despite reducing costs and raising
                                             the price of First-Class stamps?



12
     The Sponsor Event Policy and Evaluation Manual, Handbook EL-400, was approved April 2000.



                                                        14
                                              Restricted Information
Postal Service’s Involvement in Sponsorships                                        OE-AR-03-003




                                    •   Why would the Postal Service sponsor the Pro-Cycling
                                        team whose major event is the Tour de France when
                                        the primary job of the Postal Service is to deliver mail
                                        domestically?

                                    •   Do the returns (for example, remaining competitive;
                                        generating revenue; enhancing brand; and increasing
                                        exposure and employee morale) justify the expenditure
                                        of over $48 million on sponsorships over the last
                                        6 years?

                                    •   Has the Postal Service effectively managed and
                                        documented sponsorships to a level where it can stand
                                        public scrutiny?

 Recommendation                 We recommend the senior vice president, chief marketing
                                officer, in coordination with the acting vice president, Sales:

                                    7. Stop engagement in any new sponsorship agreements
                                       or extensions on current agreements, until an overall
                                       business case is developed.

                                        a. If the business case is unfavorable, discontinue
                                           sponsorships.

                                        b. If the business case is favorable, address the
                                           concerns raised in this report before pursuing further
                                           involvement in marketing and sales sponsorships.

 Management’s                   Management agreed with our recommendation and had
 Comments                       already taken corrective actions. Management stated that all
                                sponsorships will be thoroughly reviewed using the
                                sponsorship event policy manual. No sponsorships will be
                                engaged in without a full review and recommendation from the
                                Advertising managers.

 Evaluation of                  Management’s comments are responsive to the
 Management’s                   recommendation. Management’s actions taken or planned
 Comments                       should correct the issues identified in the report.




                                                   15
                                         Restricted Information
Postal Service’s Involvement in Sponsorships                      OE-AR-03-003



                  APPENDIX A. MANAGEMENT’S COMMENTS




                                                   16
                                         Restricted Information
Postal Service’s Involvement in Sponsorships                      OE-AR-03-003




                                                   17
                                         Restricted Information
Postal Service’s Involvement in Sponsorships                      OE-AR-03-003




                                                   18
                                         Restricted Information
Postal Service’s Involvement in Sponsorships                      OE-AR-03-003




                                                   19
                                         Restricted Information
Postal Service’s Involvement in Sponsorships                      OE-AR-03-003




                                                   20
                                         Restricted Information
Postal Service’s Involvement in Sponsorships                      OE-AR-03-003




                                                   21
                                         Restricted Information
Postal Service’s Involvement in Sponsorships                                      OE-AR-03-003



                                               APPENDIX B

                    OIG’s Response to Management’s Comments
                           Claiming Report Inaccuracies
    We appreciate management’s response to our draft report and the actions already
    initiated to improve the management and use of sponsorships. The following
    presents management’s comments claiming report inaccuracies and the OIG’s
    response. We also reference management’s comments sections in Appendix A as
    appropriate.

        1. DM Days is not a sponsorship. (For the full management comment - see
           Appendix A, page 17, paragraph1.)

            OIG’s Response: When the OIG requested a list of all sponsorships
            DM Days was provided by the Postal Service as a sponsorship. DM Days
            was, therefore, evaluated along with the 10 other sponsorships. As
            discussed in their comments, since the Postal Service does not feel DM Days
            is the same type sponsorship as others reviewed, we added a clarifying
            footnote on page 1 to the report.

        2. All sponsorships (except Pro-Cycling team) were transferred to Advertising.
           (For the full management comment - see Appendix A, page17, paragraph 2.)

            OIG’s Response: The OIG statement in the report is accurate. A
            memorandum dated August 11, 1999, indicated that all local sponsorships
            requests . . . should be referred to Advertising at headquarters. In addition, in
            an interview with the senior vice president, chief marketing officer on
            August 8, 2002, this official stated, as a result of the 2001 reorganization, with
            exception of the Pro-Cycling team, all sponsorships are being coordinated
            and managed through Advertising.

        3. Unable to validate revenue because the Postal Service did not have an
           adequate mechanism in place to track revenue. (For the full management
           comment - see Appendix A, page 17, paragraph 3.)

            OIG’s Response: The OIG statement in the report is accurate. Although we
            agree that the systems reviewed may have the capability to track revenue,
            the mechanisms (as a whole) in place during our review did not provide the
            ability to validate revenue claimed. In addition, management’s comments
            accurately state field sales employees did not always enter appropriate data
            into the system so that new revenue could be directly tracked back to an
            event or combination of events. Thus, we could not always validate revenue
            claimed.



                                                   22
                                         Restricted Information
Postal Service’s Involvement in Sponsorships                                     OE-AR-03-003




        4. The April 2000 date of Sponsorship Event Policy and Evaluation Manual is
           misleading. (For the full management comment - see Appendix A, page 17,
           paragraph 4.)

            OIG’s Response: The OIG statement in the report is accurate. We used the
            April 2000 date because that is the official date when the policy was finalized.
            Management’s response states this final manual was published in April 2000
            as well.

        5. The Postal Service did not entirely agree that media exposure can be a
           distraction. (For the full management comment - see Appendix A, page17,
           paragraph 5).

            OIG’s Response: The OIG statement in the report is accurate. This criterion
            was taken verbatim from IEG Incorporated (a recognized world leading
            provider of independent research and analysis on sponsorships) best
            practices which states “media exposure can be a distraction to what really
            matters.” We, however, agree with management’s comments that media
            exposure is important.

        6. The Postal Service was not provided with 500 tickets to any cycling event.
           (For the full management comment - see Appendix A, page 18, paragraph 2.)

            OIG’s Response: The OIG statement in the report is accurate. A sales
            support/account management specialist working on the Pro-Cycling team
            sponsorship at the time and a sales and business manager with Threshold
            Sports, LLC, provided this information. They informed us that one of the
            Pro-Cycling team events had 500 invitations/tickets. The Postal Service
            could not provide a distribution listing of tickets for this event.

        7. Guidance noted in establishing ratio of customers is not policy. (For the full
           management comment - see Appendix A, page17, paragraph 3.)

            OIG’s Response: The OIG statement in the report is accurate. We never
            stated in the report that this guidance was policy. Regardless, an adequate
            mix of customers and Postal Service representatives was not obtained.




                                                   23
                                         Restricted Information
